APPENDIX

United States v. Thompson, 813 F. App’x 918 (No. 19-4807) (4th Cir. 2020). . . . . . 1a
United States v. Thompson, 924 F.3d 122 (No. 18-4100) (4th Cir. 2019). . . . . . . . . 3a
18 U.S.C. § 3583. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14a
18 U.S.C. § 3624(e). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18a

United States v. Thompson, 813 Fed.Appx. 918 (2020)

supervised release after remand following this court's opinion
in United States v. Thompson, 924 F.3d 122 (4th Cir. 2019).
Finding no error, we affirm. Thompson pled guilty, pursuant
to a plea agreement, to drug and firearms offenses in 2004 and
was sentenced to 180 months’ imprisonment, followed by 5
years of supervised release. The judgment included a special
provision of supervision that Thompson, a citizen of Jamaica,
would be remanded to the custody of the U.S. Marshal Service
after he completed his term of imprisonment and surrender
to the Bureau of Immigration and Customs Enforcement
(“ICE”) for deportation proceedings. The special condition
also stated that Thompson was not permitted to reenter the
United States without the express permission of the United
States Attorney General and, if he did so within the period
of his supervised release, he was required to report to the
probation office within 72 hours.

813 Fed.Appx. 918 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007. See
also U.S.Ct. of Appeals 4th Cir. Rule 32.1.
United States Court of Appeals, Fourth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Phillip Jazir THOMPSON, a/k/a Dashawn
Andre Saunders, a/k/a Phillip Thompson, a/
k/a Jonathan Bellamy, Defendant - Appellant.
No. 19-4807
|
Submitted: June 11, 2020
|
Decided: July 31, 2020
Appeal from the United States District Court for the Eastern
District of Virginia, at Richmond. Henry E. Hudson, Senior
District Judge. (3:03-cr-00420-HEH-1)
Attorneys and Law Firms
Geremy C. Kamens, Federal Public Defender, Patrick L.
Bryant, Appellate Attorney, Alexandria, Virginia, Nia A.
Vidal, Assistant Federal Public Defender, OFFICE OF THE
FEDERAL PUBLIC DEFENDER, Richmond, Virginia, for
Appellant. G. Zachary Terwilliger, United States Attorney,
Alexandria, Virginia, Olivia L. Norman, Assistant United
States Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, Richmond, Virginia, for Appellee.
Before GREGORY, Chief Judge, THACKER and HARRIS,
Circuit Judges.
Opinion
Affirmed by unpublished per curiam opinion.
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
*919 Phillip J. Thompson appeals from the district court's
order re-imposing a 30-month sentence upon revocation of his

Thompson's term of supervised release commenced in June
2010; he was deported later that month. Thompson illegally
reentered the United States in 2011, and he was arrested by
ICE and charged with reentry after deportation. On May 25,
2011, he was again removed from the United States. In July
2011, the probation officer filed a petition seeking revocation
of Thompson's supervised release, alleging that Thompson
violated a mandatory condition—committing a crime by
illegally reentering—and the special condition by reentering
without express permission by the Attorney General.
In 2014, law enforcement became aware that Thompson
had again illegally reentered the United States; he was
finally arrested in June 2017. In September 2017, the
probation officer filed an addendum to the unadjudicated
2011 petition on supervised release including allegations
that Thompson had committed additional crimes during
his term of supervised release including a second illegal
reentry, conspiracy to distribute and possess with the
intent to distribute marijuana, and conspiracy to commit
money laundering. Thompson objected to the district court's
jurisdiction, arguing that his five-year term of supervised
release had expired in 2015.
Relying on United States v. Buchanan, 638 F.3d 448 (4th
Cir. 2011), the district court held that Thompson's five-year
term of supervision was tolled from the time he absconded
from supervision—when he returned to the United States and
failed to report to probation within 72 hours as required by
the conditions of his supervision. The court concluded that
December 2014 was the appropriate start date for tolling and

App. 1a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Thompson, 813 Fed.Appx. 918 (2020)

that his supervised release remained tolled until his January
2018 revocation hearing. Thompson appealed.
We agreed that, applying the fugitive tolling doctrine in
Buchanan, Thompson's supervised release period stopped
running in December 2014, with six months remaining of
the five-year term. However, we concluded that the district
court erred in determining that Thompson's supervised release
remained tolled until his revocation hearing. Rather, we
concluded that fugitive tolling stopped upon his arrest in
June 2017. Accordingly, we vacated the *920 judgment and
remanded for the district court to consider other possible
bases of jurisdiction. United States v. Thompson, 924 F.3d
122, 127 (4th Cir. 2019).
On remand, the district court concluded that Thompson's
supervised release period was tolled from the time of his
June 2017 arrest until his revocation hearing in January
2018 pursuant to 18 U.S.C. § 3624(e) (2018). Citing the
recent Supreme Court decision in Mont v. United States,
––– U.S. ––––, 139 S. Ct. 1826, 204 L.Ed.2d 94 (2019),
the district court held that Thompson's supervised release
remained tolled while awaiting disposition of pending
charges. The court then reinstated Thompson's 30-month
sentence. Thompson appeals.
We “review de novo a challenge of a district court's
jurisdiction to rule upon alleged violations of supervised
release.” United States v. Winfield, 665 F.3d 107, 109 (4th
Cir. 2012). Thompson argues, first, that this court should
not apply the doctrine of fugitive tolling in a supervised
End of Document

release revocation proceeding. However, he concedes that
this argument is foreclosed by Buchanan. See Warfaa v. Ali,
811 F.3d 653, 661 (4th Cir. 2016) (recognizing that one
panel cannot overrule a decision issued by another panel).
Thompson also concedes that the application of the fugitive
tolling doctrine to his release term is “law of the case” and
may not be revisited in this appeal.
In Mont, the Supreme Court held that “[i]n light of the
statutory text and context of § 3624(e), pretrial detention
qualifies as imprisonment in connection with a conviction
if a later imposed sentence credits that detention as time
served for the new offense. Such pretrial detention tolls the
supervised-release period, even though the District Court may
need to make the tolling determination after the conviction.”
Mont, 139 S. Ct. at 1835 (internal quotation and alteration
omitted). Thompson received credit for his time served in
custody while awaiting his revocation hearing. Accordingly,
we find no error in the district court's finding that it had
jurisdiction to revoke Thompson's supervised release and we
affirm the judgment. We dispense with oral argument because
the facts and legal contentions are adequately presented in the
materials before this court and would not aid the decisional
process.
AFFIRMED
All Citations
813 Fed.Appx. 918 (Mem)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. 2a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

122

924 FEDERAL REPORTER, 3d SERIES

maliciously, but not if she acted in good
faith. See Whitley, 475 U.S. at 320–21, 106
S.Ct. 1078. As our cases make clear,
whether an officer has complied with or,
alternatively, violated a relevant use-offorce policy, while not dispositive, is highly
relevant to that inquiry. Adherence to a
policy, we have explained, ‘‘provide[s] powerful evidence that the application of force
was tempered and that the officers acted
in good faith.’’ Williams, 77 F.3d at 766.
So if Detention Center policy calls for the
use of a taser to induce inmates to cooperate in efforts to take their pictures, or in
similar circumstances more broadly defined, then that would support the officers’
contention that Johnston acted in a good
faith effort to enforce discipline. See id. If,
on the other hand, Johnston was acting in
contravention of an applicable use-of-force
policy when Brooks was subjected to three
taser shocks, then that would tend to suggest the opposite: that she applied force in
bad faith and with punitive intent. See Iko,
535 F.3d at 240 (relying in part on violation of ‘‘Use of Force Directive’’ to support
inference that pepper spray was administered for improper and malicious purpose);
Orem, 523 F.3d at 447 (relying in part on
violation of taser policy to support inference that taser was deployed maliciously).
Nor are we persuaded by the magistrate
judge’s apparent rationale that requests
for use-of-force policies typically are denied for security reasons. As demonstrated
by Williams, Iko, and Orem — along with
numerous other cases cited by Brooks —
relevant use-of-force policies routinely are
considered in excessive-force litigation, including litigation that arises in the prison
9.

Brooks also argues on appeal that the magistrate judge committed reversible error by
denying his several motions for the appointment of counsel. Because we grant the relief
that Brooks is seeking on his other three
claims, the denial of Brooks’s motions for
counsel did not cause any prejudice, and
therefore this argument is moot. On remand,

context. Accordingly, the magistrate judge
erred by denying Brooks’s motion to compel production of relevant policies concerning the use of force against inmates in
similar circumstances. Of course, reasonable mechanisms — such as redaction of
text that is not relevant to the case — may
be permitted in order to limit any purported security concerns.9
III.
For the foregoing reasons, we vacate the
grant of summary judgment to the defendants on Brooks’s Eighth Amendment
claim and the dismissal of Johnston from
the case, and remand for further proceedings consistent with this opinion.
VACATED AND REMANDED WITH
INSTRUCTIONS

,
UNITED STATES of America,
Plaintiff - Appellee,
v.
Phillip Jazir THOMPSON, a/k/a Dashawn Andre Saunders, a/k/a Phillip
Thompson, a/k/a Jonathan Bellamy,
Defendant - Appellant.
No. 18-4100
United States Court of Appeals,
Fourth Circuit.
Argued: January 31, 2019
Decided: May 10, 2019
Background: Defendant, who was citizen
of Jamaica, was charged with violating
however, we suggest that the court consider
appointing counsel for Brooks to assist in
litigating the case, consistent with applicable
local rules and procedures. See Williams v.
Collier, 357 F. App’x 532, 536 (4th Cir. 2009)
(per curiam) (citing McEachin v. McGuinnis,
357 F.3d 197, 205 (2d Cir. 2004)).

App. 3a

U.S. v. THOMPSON
Cite as 924 F.3d 122 (4th Cir. 2019)

terms of his supervised release. The United States District Court for the Eastern
District of Virginia, Henry E. Hudson,
Senior District Judge, 2018 WL 894030,
overruled defendant’s objections to its jurisdiction and sentenced him to 30 months’
imprisonment for violations of his supervised release conditions. Defendant appealed.
Holdings: The Court of Appeals, Pamela
Harris, Circuit Judge, held that:
(1) fugitive tolling doctrine applied to toll
defendant’s term of supervised release;
(2) district court’s determination of date
that defendant became fugitive, and
thereby triggered fugitive tolling, was
supported by sufficient evidence;
(3) defendant was no longer fugitive, and
thus tolling no longer applied, as of
date that he was located and arrested;
and
(4) district court was required to determine in first instance whether additional period of fugitive tolling applied.
Vacated and remanded.
1. Criminal Law O1139
Court of Appeals reviews de novo
whether the district court had jurisdiction
to rule upon alleged violations of supervised release.
2. Sentencing and Punishment O2010
As a general rule, a district court’s
power to revoke a term of supervised release or to sanction violations ends when
that term expires. 18 U.S.C.A. § 3583(i).
3. Courts O90(2)

123

when a defendant absconds from supervision.
See publication Words and Phrases
for other judicial constructions and
definitions.

5. Sentencing and Punishment O1947
Fugitive tolling doctrine applied to toll
defendant’s term of supervised release,
even if defendant made no active and
knowing effort to evade adjudication of
particular supervised release petition,
where defendant, who was citizen of Jamaica, failed to report for supervision
when he re-entered United States after his
deportation during originally imposed term
of supervision, defendant was fully aware
that reporting for supervision was condition of his supervised release, and, instead
of reporting, defendant actively and consciously concealed himself and used aliases
to avoid supervision.
18 U.S.C.A.
§ 3583(i).
6. Sentencing and Punishment O1947
Defendant becomes a fugitive, triggering application of fugitive tolling doctrine
to term of supervised release, when he
absconds from supervision; it is the flight
from supervision, not from a particular
supervised release petition or charge, that
counts. 18 U.S.C.A. § 3583(i).
7. Sentencing and Punishment O1947
Defendant does not become a ‘‘fugitive,’’ and thereby trigger application of
fugitive tolling doctrine to term of supervised release, by virtue of missing a meeting with a probation officer, or simply
because he violates a condition of supervised release. 18 U.S.C.A. § 3583(i).
See publication Words and Phrases
for other judicial constructions and
definitions.

Panels of the Court of Appeals are
bound by circuit precedent.
4. Sentencing and Punishment O1947

8. Sentencing and Punishment O2018

‘‘Fugitive tolling doctrine’’ provides
that a term of supervised release is tolled

Burden is on the government to establish facts that justify fugitive tolling of

App. 4a

124

924 FEDERAL REPORTER, 3d SERIES

term of supervised release.
§ 3583(i).

18 U.S.C.A.

9. Sentencing and Punishment O1947
Government must establish the starting date of the tolling period for term of
supervised release pursuant to fugitive
tolling doctrine. 18 U.S.C.A. § 3583(i).
10. Sentencing and Punishment O2021
District court’s determination of date
that defendant became fugitive, and thereby triggered fugitive tolling of term of
supervised release, was supported by sufficient evidence, including police officer’s
testimony that defendant returned to United States and was in California, organizing
multiple shipments of marijuana to Virginia, six months before his supervised release term was to end, probation officer’s
testimony that defendant obtained driver’s
license and cell phone number in California, leased car, and was residing with girlfriend in Florida two years after he returned, during which time defendant was
failing to report to probation and instead
used aliases to avoid detection.
18
U.S.C.A. § 3583(i).
11. Sentencing and Punishment O1947
Defendant was no longer fugitive, and
thus tolling no longer applied to term of
supervised release, as of date that defendant was located and arrested and thereby
returned to supervision. 18 U.S.C.A.
§ 3583(i).
12. Sentencing and Punishment O1947,
2010
District court was required to determine in first instance whether additional
period of fugitive tolling applied to supervised release term of defendant, who was
citizen of Jamaica, so as to extend court’s
jurisdiction to sanction defendant’s violation of supervised release condition in failing to report for supervision after his reentry to United States following deporta-

tion; contrary to district court’s determination, defendant’s status as fugitive did not
extend to revocation hearing, but rather
ended when he was located and arrested,
which meant defendant’s undisputed sixmonth period of fugitive status ended one
month before revocation hearing, but court
would be allowed to consider evidence of
defendant’s earlier re-entry and potential
additional period of fugitive status. 18
U.S.C.A. § 3583(i).

Appeal from the United States District
Court for the Eastern District of Virginia,
at Richmond. Henry E. Hudson, Senior
District Judge. (3:03-cr-00420-HEH-1)
ARGUED: Patrick L. Bryant, OFFICE
OF THE FEDERAL PUBLIC DEFENDER, Alexandria, Virginia, for Appellant. Aidan Taft Grano, OFFICE OF THE
UNITED STATES ATTORNEY, Alexandria, Virginia, for Appellee. ON BRIEF:
Geremy C. Kamens, Federal Public Defender, Alexandria, Virginia, Nia A. Vidal,
Assistant Federal Public Defender, OFFICE OF THE FEDERAL PUBLIC DEFENDER, Richmond, Virginia, for Appellant. G. Zachary Terwilliger, United States
Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Alexandria, Virginia, for Appellee.
Before GREGORY, Chief Judge, and
THACKER and HARRIS, Circuit Judges.
Vacated and remanded by published
opinion. Judge Harris wrote the opinion, in
which Chief Judge Gregory and Judge
Thacker joined.
PAMELA HARRIS, Circuit Judge:
Phillip Jazir Thompson, a native of Jamaica, was sentenced to a five-year term
of supervised release. A special condition
of that release prohibited Thompson, once
deported, from returning to the United

App. 5a

U.S. v. THOMPSON
Cite as 924 F.3d 122 (4th Cir. 2019)

States without permission and required, if
he did reenter, that Thompson report
promptly to probation. Six months before
his supervised release term was to end in
June of 2015, Thompson returned to the
United States without permission, did not
report to probation, and instead used an
alias to avoid detection for several years.
When Thompson finally was apprehended in 2017 and charged with violating
the conditions of his supervised release, he
argued that the government was too late:
Because his five-year supervised release
term had expired in 2015, the district court
was without jurisdiction to sanction any
violations. The district court disagreed,
holding that the term of Thompson’s supervised release was tolled when Thompson became a fugitive, actively concealing
himself from probation while residing in
the United States. The court went on to
sentence Thompson to 30 months’ imprisonment for violations of his supervised release conditions.
On the main issue presented by this
appeal, we agree with the district court:
The doctrine of fugitive tolling applies in
this case, extending the period of time
during which the district court was authorized to sanction Thompson’s violations.
Questions remain, however, about the precise duration of that tolling, and whether
the fugitive tolling doctrine or some other
legal provision authorized the district court
to impose sanctions in January of 2018.
Accordingly, we vacate the district court’s
supervised release order and remand for
further proceedings.
I.
A.
At the heart of this case is a five-year
term of supervised release to which Phillip
Jazir Thompson was sentenced in 2004,
after pleading guilty to drug and weapons

125

charges. The term began on June 16, 2010,
when Thompson completed a 180-month
prison sentence on the same charges, and
was to expire on June 16, 2015.
Approximately two weeks after the start
of his supervised release term, Thompson,
a citizen of Jamaica, was deported. Under
a special condition of his supervised release, Thompson could not return to the
United States for the remainder of his
term without the express permission of the
Attorney General. So long as he remained
outside the country, Thompson had no reporting obligations. But if he returned to
the United States for any reason, then
Thompson was required ‘‘to report to the
nearest United States Probation Office
within 72 hours of arrival.’’ J.A. 15.
On two separate occasions and notwithstanding that special condition, Thompson
reentered the United States without permission. First, on April 16, 2011 – ten
months after his supervised release term
began – Thompson was taken into custody
in California. A little over a month later,
on May 25, 2011, Thompson was deported
for a second time. Thompson’s probation
officer subsequently filed a petition in July
of 2011, alleging that Thompson had violated his supervised release conditions – both
a mandatory condition prohibiting the
commission of any crime (here, the offense
of illegal reentry after being deported) and
the special condition prohibiting reentry
without permission. Based on that petition,
the district court entered a warrant for
Thompson’s arrest.
By December of 2014 – six months before Thompson’s supervised release term
was to end in June of 2015 – Thompson
had returned to the United States for a
second time. As law enforcement agents
later learned, while in the United States
under an assumed name, Thompson was
organizing marijuana shipments from California to Virginia and routing payments

App. 6a

126

924 FEDERAL REPORTER, 3d SERIES

for those shipments through various bank
accounts. What Thompson was not doing
was reporting to probation: Despite knowing of the special condition of his supervised release, Thompson never informed
probation that he was in the United States.
Because Thompson was using an alias,
law enforcement agents were unable to
locate him until June of 2017, when they
arrested him in Florida. By then, the date
on which Thompson’s supervised release
term was due to expire – June 16, 2015 –
had come and gone. Thompson’s probation
officer nevertheless filed an addendum to
her earlier supervised release petition, in
September of 2017, alleging that Thompson again had violated the mandatory condition against commission of a crime, this
time by engaging in drug and money laundering offenses as well as by illegally reentering the country.
B.
In January of 2018, the district court
convened a hearing to consider the supervised release violations alleged in the July
2011 petition and September 2017 addendum. Before the court could reach the
merits, however, Thompson challenged its
jurisdiction. District courts, as Thompson
noted, generally do not have jurisdiction to
sanction supervised release violations once
a supervised release term has expired. See
18 U.S.C. § 3583(i) (the power of the court
to sanction supervised release violations
‘‘extends beyond the expiration of the term
of supervised release’’ only in limited circumstances). And because his term had
expired as scheduled on June 16, 2015,
Thompson argued, the court could not adjudicate his alleged violations almost three
years later, in January of 2018.
The government disagreed, arguing that
Thompson’s supervised release term in
fact had not expired in June of 2015. Instead, under the fugitive tolling doctrine

recognized by our court in United States v.
Buchanan, 638 F.3d 448 (4th Cir. 2011),
Thompson’s five-year term was tolled
when Thompson absconded from supervision, returning to the United States but
failing to report to probation within 72
hours as required by the conditions of his
release.
In support, Officer Timothy Walker of
the Richmond Police Department testified
that Thompson had returned to the United
States no later than December 2014 – six
months before his supervised release term
was to end in June of 2015 – by which
point he was in California, shipping marijuana to Virginia. According to the officer,
Thompson had secured a cell phone number and California driver’s license under
an alias. He also had leased a car, and in
August 2016 had started living with his
girlfriend, now in Florida. Thompson’s probation officer also testified, explaining that
Thompson never contacted a probation officer, and that probation learned of his
return to the United States only after his
arrest in June of 2017. Thompson, for his
part, contested none of those facts. Instead, he argued that they were not
enough to make him a ‘‘fugitive’’ for purposes of the fugitive tolling doctrine.
Based on this undisputed evidence, the
district court held that fugitive tolling applied to Thompson’s term of supervised
release, extending the court’s jurisdiction
beyond the original expiration date of
June 16, 2015. During his supervised release term, the court found, Thompson
‘‘was in the country yet failing to report
for supervision,’’ in violation of conditions
of which Thompson was fully aware. J.A.
111. And the evidence presented by the
government, the court determined – in
particular,
evidence
of
Thompson’s
aliases – was ‘‘more than sufficient to support a finding that [Thompson] actively
and consciously concealed himself to avoid

App. 7a

127

U.S. v. THOMPSON
Cite as 924 F.3d 122 (4th Cir. 2019)

detection,’’ thus ‘‘willfully creat[ing] the
circumstances under which he was absent
from supervision.’’ Id. (internal quotation
marks omitted). That was enough, the
court concluded, to make ‘‘fugitive tolling
TTT available to stop the clock on [Thompson’s] supervised release’’ term. J.A. 112
(internal quotation marks omitted).
The court then turned to the question of
timing. The precise date on which Thompson reentered the country after his 2011
deportation was ‘‘admittedly unclear,’’ the
district court explained, id., with some evidence indicating Thompson’s presence as
early as 2013. That made it ‘‘difficult to
pinpoint the exact date’’ on which Thompson could be ‘‘deemed to have absconded
from supervised release.’’ Id. The court
ultimately identified December of 2014 as
the starting date for tolling, based on Officer Walker’s testimony that Thompson had
returned to the United States no later
than that month. So in December of 2014,
with six months to go until Thompson’s
supervised release term was to end in
June of 2015, the ‘‘clock stopped’’ on that
term. And it remained stopped, the court
explained, through June of 2017 – when
Thompson was arrested – and then never
restarted, because Thompson never was
returned to supervision after his 2017 arrest. Accordingly, the court concluded,
Thompson’s supervised release term was
still in effect, giving the court jurisdiction
over Thompson’s alleged violations.

II.
[1] The sole question on appeal is
whether the district court correctly concluded that it had the authority in January
of 2018 to adjudicate alleged violations of a
supervised release term that was set to
expire in June of 2015. We ‘‘review[ ] de
novo whether the district court had jurisdiction to rule upon alleged violations of
supervised release.’’ United States v. Harris, 878 F.3d 111, 115 (4th Cir. 2017).
We are in substantial agreement with
the district court in this case. Specifically,
we agree that Thompson’s supervised release term was tolled under the fugitive
tolling doctrine, extending the court’s jurisdiction beyond the original end of
Thompson’s term in June of 2015. On this
record, however, we are unable to determine whether that tolling – or some other
legal provision – continued to provide the
court with jurisdiction in January of 2018,
when Thompson was sanctioned for violations of his supervised release. We therefore remand to the district court so that it
may make the findings necessary to resolve that question.
A.

After the court rejected Thompson’s
challenge to its jurisdiction, Thompson admitted to committing the violations alleged
in the July 2011 petition and September
2017 addendum. At the close of the hearing – in January of 2018 – the district
court revoked Thompson’s supervised release term and sentenced him to 30
months’ imprisonment. This timely appeal
followed.

[2, 3] According to Thompson, the district court’s jurisdiction to sanction his supervised release violations expired on June
16, 2015, along with his term of supervised
release. As a general rule – and this much
is undisputed – a district court’s power to
revoke a term of supervised release or to
sanction violations ends when that term
expires. See 18 U.S.C. § 3583(i). And here,
Thompson argues, there is no ground for
extending that expiration date, because he
was not a ‘‘fugitive’’ under the fugitive
tolling doctrine.1 Only an active and know-

Thompson also argues that United States v.

Buchanan, 638 F.3d 448 (4th Cir. 2011), in

1.

App. 8a

128

924 FEDERAL REPORTER, 3d SERIES

ing effort to evade adjudication of a supervised release petition, Thompson contends,
is sufficient to trigger the fugitive tolling
doctrine, and because he never became
aware of the July 2011 petition filed
against him – having been deported two
months prior, in May – he does not fit the
bill. Like the district court, we disagree.
[4] The fugitive tolling doctrine, as we
recognized in Buchanan, provides that ‘‘a
term of supervised release is tolled when a
defendant absconds from supervision.’’ 638
F.3d at 455. That is so, we explained, for
two primary reasons, neither of which has
anything to do with a defendant’s awareness of an outstanding petition against
him. First, Congress ‘‘inten[ded] TTT defendants to serve their full [supervised]
release term.’’ Id. When that term includes
a supervision requirement – as Thompson’s did, once he reentered the United
States – then a defendant’s fugitive status,
by precluding supervision, means that the
term is not being served as intended. Tolling addresses that problem by ‘‘ensur[ing]
that, upon being apprehended, the defendant will be subject to judicial supervision
for a complete term.’’ Id. at 458. Second,
just as an escaped prisoner’s sentence is
not credited for the time the prisoner
spends out of custody, we reasoned, a supervised release term should not be credited for time that a defendant, ‘‘by virtue of
his own wrongful act,’’ spends out of supervision. Id. at 454, 455 (internal quotation marks omitted). Fugitive tolling, in
other words, prevents a situation in which
we ‘‘reward an absconder for his misconduct,’’ allowing a fugitive defendant to run
out the clock on his release term while
which we recognized the doctrine of fugitive
tolling as applied to supervised release sentences, was wrongly decided, and that supervised release sentences never should be tolled
on the basis of fugitive status. But as Thomp-

refusing to submit to supervision. Id. at
455.
[5] Under that reasoning, as the district court concluded, the fugitive tolling
doctrine applies to Thompson. The district
court found (and Thompson does not dispute) that ‘‘while the originally imposed
term of supervision was still running,
[Thompson] was in the [United States] yet
failing to report for supervision’’ as required by the conditions of his supervised
release. J.A. 111. So Thompson did not –
as the district court and Congress intended – serve his full term of supervision
under the conditions specified in his judgment of conviction. And that failure to
serve the full term was the result of
Thompson’s own misconduct, in the form
of knowingly absconding from supervision:
Thompson, as the district court found (and
again, Thompson does not dispute), was
fully ‘‘aware of [the] terms and conditions’’
of his supervised release and instead of
abiding by them, ‘‘actively and consciously
concealed himself’’ and used aliases to
avoid supervision. Id. Those findings are
enough, under Buchanan, to satisfy the
government’s burden of showing that the
fugitive tolling doctrine applies, see United
States v. Williams, 520 F. App’x 617, 618
(9th Cir. 2013) (‘‘In the revocation proceedings below, it was the government’s burden to prove the facts surrounding both
periods of fugitive tolling.’’); see also Kokkonen v. Guardian Life Ins. Co. of Am.,
511 U.S. 375, 377, 114 S.Ct. 1673, 128
L.Ed.2d 391 (1994) (party asserting jurisdiction bears burden of establishing jurisdiction).
[6] Thompson’s contrary position –
that only the active and knowing evasion
son recognizes, panels of this court are bound
by circuit precedent, United States v. PrinceOyibo, 320 F.3d 494, 498 (4th Cir. 2003), and
Buchanan governs this case.

App. 9a

129

U.S. v. THOMPSON
Cite as 924 F.3d 122 (4th Cir. 2019)

of charges in a pending supervised release
petition can trigger fugitive tolling – finds
no support in Buchanan. Under Buchanan, a defendant becomes a fugitive for
these purposes when he ‘‘absconds from
supervision,’’ 638 F.3d at 455; it is the
flight from supervision, not from a particular petition or charge, that counts. Nor,
as Thompson concedes, is there any other
court of appeals that has adopted his position. Instead, the Ninth Circuit already
has rejected a very similar argument,
holding in United States v. Ignacio Juarez, 601 F.3d 885 (2010), that a defendant
may be a fugitive for tolling purposes even
if no warrant against him has issued. It is
not the warrant, the Ninth Circuit explained, that triggers tolling; instead, ‘‘[f]ugitive tolling begins when the defendant
absconds from supervision – making it impossible for the Probation Office to supervise his actions.’’ Id. at 890 (emphasis added). Applying that standard – the same
one adopted in Buchanan – the Ninth
Circuit held that the defendant, who, like
Thompson, had been ordered to report to
his probation officer if he reentered the
United States, became a fugitive for purposes of tolling when he reentered the
United States but refused to submit to
supervision. Id. at 886, 890.
[7] Thompson argues that his return to
the United States in violation of a supervised release condition cannot be enough
to make him a ‘‘fugitive,’’ and that if it
were, every minor supervised release violation would become a basis for fugitive
tolling. On this point, we agree with
Thompson: A defendant does not become a
fugitive for tolling purposes by virtue of
missing a meeting with a probation officer,
or simply because he violates a condition of
supervised release. But that is not what
happened here. In applying the fugitive
tolling doctrine, the district court did not
rely on Thompson’s reentry without per-

mission, in violation of his supervised release condition. Nor did the district court
label Thompson a fugitive solely because
he missed one or even multiple meetings
with his probation officer. Instead, the district court found that Thompson had ‘‘abscond[ed] from supervision’’ for several
years, J.A. 110 (internal quotation marks
omitted), ‘‘actively and consciously conceal[ing] himself’’ through use of aliases
and other measures, J.A. 111. It is that
sustained and knowing course of conduct,
which ‘‘precludes the sentencing court
from exercising [the] supervision’’ contemplated by a supervised release term, Buchanan, 638 F.3d at 458, that justifies
fugitive tolling under Buchanan.
B.
Having held, like the district court, that
the fugitive tolling doctrine applies, we
next address what turns out to be the
more difficult aspect of this case: determining when, exactly, Thompson’s supervised release term was tolled, and for how
long. Thompson has not challenged the
district court’s findings with respect to
timing, either before the district court or
on appeal. But because those findings implicate the court’s jurisdiction, we address
them here. See Arbaugh v. Y&H Corp., 546
U.S. 500, 514, 126 S.Ct. 1235, 163 L.Ed.2d
1097 (2006) (‘‘[C]ourts TTT have an independent obligation to determine whether
subject-matter jurisdiction exists, even in
the absence of a challenge from any party.’’). We conclude that the district court
erred in identifying the end date for tolling, and thus vacate the district court’s
order and remand so that the district court
may consider other possible bases for jurisdiction in this case.
1.
We begin with the question of when
fugitive tolling began – that is, at what

App. 10a

130

924 FEDERAL REPORTER, 3d SERIES

point Thompson became a fugitive, so that
the clock stopped running on the five-year
supervised release term that started on
June 16, 2010. As the district court acknowledged, it is unclear when precisely
Thompson reentered the country after his
2011 deportation – with some evidence
placing him in the United States as early
as 2013 – and thus difficult to ‘‘pinpoint the
exact date’’ on which Thompson absconded
from supervision. J.A. 112. In light of that
uncertainty, the district court made a conservative estimate, crediting the testimony
of Officer Walker that Thompson had returned to the United States by no later
than December of 2014, and found that
Thompson became a fugitive by ‘‘at least
December of 2014,’’ when he was residing
in the United States and concealing himself from probation. Id.
[8, 9] Under the circumstances of this
case, we find no error in the district
court’s conclusion. The burden, again, is on
the government to establish facts that justify fugitive tolling. See Williams, 520 F.
App’x at 618. In light of this burden, we
generally expect the government to prove
up a more precise date for the start of a
fugitive tolling period. That date may often
be the date on which a warrant issues for
the defendant’s arrest based on the defendant’s failure to report when instructed to
by a probation officer. Or the government
may present evidence that the defendant
absconded on another determinable date.
Compare Ignacio Juarez, 601 F.3d at 890
(noting that the date on which a bench
warrant for an absconder is issued ‘‘often
might’’ coincide with the date on which a
defendant becomes an absconder but that
tolling may begin earlier ‘‘in a case in
which we know that the defendant was a
2.

Indeed, when probed on this point during
oral argument, counsel for Thompson acknowledged that Thompson does not challenge the sufficiency of the evidence showing

fugitive at an earlier date’’ (internal quotation marks omitted)), with United States v.
Island, 916 F.3d 249, 251, 256 (3d Cir.
2019) (finding that fugitive tolling began
upon issuance of arrest warrant despite
probation officer’s testimony that defendant ceased required reporting two
months earlier, after which defendant’s
whereabouts were unknown), and United
States v. Murguia-Oliveros, 421 F.3d 951,
952, 955 (9th Cir. 2005) (determining that
fugitive tolling period began at time of
arrest warrant despite evidence that defendant unlawfully reentered United
States and failed to report months earlier).
Either way, the government must establish the starting date of the tolling period.
[10] In this case, though a robust record is not before us, we are satisfied that
the record supports the district court’s
finding that by December of 2014 at the
outside, Thompson was residing in the
United States while taking active measures to conceal his presence and avoid
supervision. By then, Officer Walker testified, Thompson had returned to the United
States and was in California, organizing
multiple shipments of marijuana to Virginia. And there is circumstantial evidence
from which the district court could find
that Thompson not only entered but also
remained in the United States: According
to Officer Walker, Thompson obtained a
driver’s license and cell phone number in
California, leased a car, and, by 2016, was
residing with a girlfriend in Florida. Finally, throughout this period, Thompson was
failing to report to probation, and instead
using aliases to avoid detection by law
enforcement and probation. Thompson disputes none of these facts,2 and they are
enough to justify the district court’s findthat he entered and remained in the United
States from at least December 2014 to the
date of his arrest in 2017.

App. 11a

U.S. v. THOMPSON
Cite as 924 F.3d 122 (4th Cir. 2019)

ing that Thompson became a fugitive for
tolling purposes by December of 2014.
2.
That brings us to the question of when
fugitive tolling ended. Thompson’s fiveyear supervised release term began in
June of 2010 and was set to expire in June
of 2015. Instead, under the fugitive tolling
doctrine, the clock stopped running in December of 2014, with six months still to go
on the term. On whatever date fugitive
tolling ended, that clock restarted, and the
supervised release term continued – and
with it, the district court’s jurisdiction –
for the remaining six months. See Buchanan, 638 F.3d at 458 (explaining that the
clock on a defendant’s supervised release
term restarts when tolling ends). Whether
the district court still had jurisdiction to
hold a revocation hearing in January of
2018 turns, in other words, on exactly
when tolling ended.
[11] According to the district court, fugitive tolling continued to apply, and the
clock on Thompson’s term remained
stopped, right through its hearing in January of 2018, because Thompson never was
‘‘returned to supervision’’ by probation.
J.A. 112. We cannot agree. Buchanan
makes clear that fugitive tolling stops
when ‘‘federal authorities are capable of
resuming supervision’’ of the defendant,
638 F.3d at 457 (emphasis added), which
means the date on which authorities take
the defendant into custody, id. at 449, 458
(holding that supervised release term restarted when the defendant was detained
by federal authorities). In this case,
Thompson was located and arrested in
Florida in June of 2017, and so that is the
date on which his fugitive status came to
an end for tolling purposes.
[12] That presents a problem, because,
as explained above, once the clock restart-

131

ed on Thompson’s supervised release term
in June of 2017, Thompson had only an
additional six months to go – extending his
term and the court’s jurisdiction until December of 2017, or one month before the
January 2018 revocation hearing. At oral
argument, the government conceded the
problem, but proposed a solution: Thompson also was a fugitive from supervision,
the government argued, when he first
reentered the country in 2011, before being taken into custody on April 16 of that
year. As a result, the government continued, Thompson’s term was tolled for an
additional period of time, so that more
than six months remained when Thompson
was apprehended again in June of 2017.
Indeed, there appears to be evidence that
Thompson returned to the United States
in March of 2011, before he was detained
in April of that year, and the government
may be able to establish that fugitive tolling applied during that time as well. But
the district court never examined such evidence or made such a finding. Accordingly,
we remand so that the district court may
consider in the first instance whether
Thompson absconded from supervision prior to his April 2011 arrest, and, if so,
whether that additional period of fugitive
tolling is sufficient to extend the court’s
jurisdiction through the January 2018 revocation hearing.
Because the district court believed it
could rely on the fugitive tolling doctrine,
it also had no occasion to consider two
other possible bases for jurisdiction, both
of which remain open for the court’s consideration on remand. First, though
Thompson was no longer a fugitive once he
was apprehended in Florida in June of
2017, his supervised release term may
have remained tolled, not under the fugitive tolling doctrine but under 18 U.S.C.
§ 3624(e), which provides for tolling of a
supervised release term while a defendant
‘‘is imprisoned in connection with a convic-

App. 12a

132

924 FEDERAL REPORTER, 3d SERIES

tion.’’ Thompson was imprisoned from the
time of his June 2017 arrest through his
revocation hearing in January of 2018, and
pleaded guilty to and was convicted of
several of the crimes for which he was
imprisoned. If the district court finds on
remand that Thompson’s imprisonment
from June of 2017 through January of 2018
was ‘‘in connection with a conviction’’ for
purposes of § 3624(e), then Thompson’s
supervised release term remained tolled
during that period and did not expire prior
to the revocation hearing.3
Second, even assuming that no form of
tolling suffices to extend Thompson’s supervised release term until January of
2018, the district court still may have retained the power to sanction Thompson’s
violations under 18 U.S.C. § 3583(i). As a
general rule, as we explained at the start,
a district court is without jurisdiction to
revoke a supervised release term or sanction violations once the term has expired.
But § 3583(i) sets out an exception to that
rule, allowing for ‘‘[d]elayed revocation’’
proceedings when two conditions are met:
First, a ‘‘warrant or summons [must be]
issued’’ before the term’s expiration, and
second, any delay in adjudicating that
summons must be ‘‘reasonably necessary.’’
18 U.S.C. § 3583(i). Both the July 2011
petition and the September 2017 addendum charging Thompson with supervised
release violations were issued before December 2017, when Thompson’s supervised
release term expired under the fugitive
tolling doctrine. On remand, the district
court may consider in the first instance
whether any delay in adjudicating the violations alleged in those petitions was ‘‘rea3.

We have held that a defendant is imprisoned ‘‘in connection with a conviction’’ under
§ 3624(e) when, like Thompson, he is detained pretrial on charges for which he subsequently is convicted. United States v. Ide, 624
F.3d 666, 667 (4th Cir. 2010). But the Supreme Court recently heard argument in a

sonably necessary’’ under § 3583(i) in light
of Thompson’s fugitive status and other
relevant circumstances.
III.
For the foregoing reasons, the district
court’s order is vacated, and this case is
remanded for further proceedings consistent with this opinion.
VACATED AND REMANDED

,
Shudde FATH; Save Barton Creek Association; Friends of the Wildflower
Center; Carole Keeton; Frank Cloud
Cooksey; Jerry Jeff Walker; Susan
Walker; Doctor Laurie Dries; Save
Our Springs Alliance, Incorporated;
MoPac Corridor Neighbors Alliance;
The Friendship Alliance of Northern
Hays County, Incorporated; Clean
Water Action, Plaintiffs–Appellants
v.
TEXAS DEPARTMENT OF TRANSPORTATION; Central Texas Regional
Mobility Authority, Defendants–Appellees
No. 17-50683
United States Court of Appeals,
Fifth Circuit.
FILED July 17, 2018
Background: Environmental groups and
local residents brought action against Texcase challenging that holding. See Mont v.
United States, No. 17-8995 (argued Feb. 26,
2019). If the Court concludes that a defendant
is not ‘‘imprisoned in connection with a conviction’’ until after a judgment of conviction is
entered, then § 3624(e) will not fill the temporal gap in this case.

App. 13a

18 U.S.C. § 3583. Inclusion of a term of supervised release after imprisonment
(a) In General.—The court, in imposing a sentence to a term of imprisonment for a
felony or a misdemeanor, may include as a part of the sentence a requirement that the
defendant be placed on a term of supervised release after imprisonment, except that
the court shall include as a part of the sentence a requirement that the defendant be
placed on a term of supervised release if such a term is required by statute or if the
defendant has been convicted for the first time of a domestic violence crime as defined
in section 3561(b).
(b) Authorized Terms of Supervised Release.—Except as otherwise provided, the
authorized terms of supervised release are—
(1) for a Class A or Class B felony, not more than five years;
(2) for a Class C or Class D felony, not more than three years; and
(3) for a Class E felony, or for a misdemeanor (other than a petty offense), not
more than one year.
(c) Factors To Be Considered in Including a Term of Supervised Release.—The court,
in determining whether to include a term of supervised release, and, if a term of
supervised release is to be included, in determining the length of the term and the
conditions of supervised release, shall consider the factors set forth in section
3553(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D), (a)(4), (a)(5), (a)(6), and (a)(7).
(d) Conditions of Supervised Release.—The court shall order, as an explicit condition
of supervised release, that the defendant not commit another Federal, State, or local
crime during the term of supervision, that the defendant make restitution in
accordance with sections 3663 and 3663A, or any other statute authorizing a sentence
of restitution, and that the defendant not unlawfully possess a controlled substance.
The court shall order as an explicit condition of supervised release for a defendant
convicted for the first time of a domestic violence crime as defined in section 3561(b)
that the defendant attend a public, private, or private nonprofit offender rehabilitation
program that has been approved by the court, in consultation with a State Coalition
Against Domestic Violence or other appropriate experts, if an approved program is
readily available within a 50-mile radius of the legal residence of the defendant. The
court shall order, as an explicit condition of supervised release for a person required
to register under the Sex Offender Registration and Notification Act, that the person
comply with the requirements of that Act. The court shall order, as an explicit
condition of supervised release, that the defendant cooperate in the collection of a DNA
sample from the defendant, if the collection of such a sample is authorized pursuant
to section 3 of the DNA Analysis Backlog Elimination Act of 2000. The court shall also
order, as an explicit condition of supervised release, that the defendant refrain from
any unlawful use of a controlled substance and submit to a drug test within 15 days
App. 14a

of release on supervised release and at least 2 periodic drug tests thereafter (as
determined by the court) for use of a controlled substance. The condition stated in the
preceding sentence may be ameliorated or suspended by the court as provided in
section 3563(a)(4).1 The results of a drug test administered in accordance with the
preceding subsection shall be subject to confirmation only if the results are positive,
the defendant is subject to possible imprisonment for such failure, and either the
defendant denies the accuracy of such test or there is some other reason to question the
results of the test. A drug test confirmation shall be a urine drug test confirmed using
gas chromatography/mass spectrometry techniques or such test as the Director of the
Administrative Office of the United States Courts after consultation with the Secretary
of Health and Human Services may determine to be of equivalent accuracy. The court
shall consider whether the availability of appropriate substance abuse treatment
programs, or an individual's current or past participation in such programs, warrants
an exception in accordance with United States Sentencing Commission guidelines from
the rule of section 3583(g) when considering any action against a defendant who fails
a drug test. The court may order, as a further condition of supervised release, to the
extent that such condition—
(1) is reasonably related to the factors set forth in section 3553(a)(1), (a)(2)(B),
(a)(2)(C), and (a)(2)(D);
(2) involves no greater deprivation of liberty than is reasonably necessary for the
purposes set forth in section 3553(a)(2)(B), (a)(2)(C), and (a)(2)(D); and
(3) is consistent with any pertinent policy statements issued by the Sentencing
Commission pursuant to 28 U.S.C. 994(a);
any condition set forth as a discretionary condition of probation in section 3563(b) and
any other condition it considers to be appropriate, provided, however that a condition
set forth in subsection 3563(b)(10) shall be imposed only for a violation of a condition
of supervised release in accordance with section 3583(e)(2) and only when facilities are
available. If an alien defendant is subject to deportation, the court may provide, as a
condition of supervised release, that he be deported and remain outside the United
States, and may order that he be delivered to a duly authorized immigration official
for such deportation. The court may order, as an explicit condition of supervised release
for a person who is a felon and required to register under the Sex Offender Registration
and Notification Act, that the person submit his person, and any property, house,
residence, vehicle, papers, computer, other electronic communications or data storage
devices or media, and effects to search at any time, with or without a warrant, by any
law enforcement or probation officer with reasonable suspicion concerning a violation
of a condition of supervised release or unlawful conduct by the person, and by any
probation officer in the lawful discharge of the officer's supervision functions.
(e) Modification of Conditions or Revocation.—The court may, after considering the
factors set forth in section 3553(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D), (a)(4), (a)(5), (a)(6),
App. 15a

and (a)(7)—
(1) terminate a term of supervised release and discharge the defendant released
at any time after the expiration of one year of supervised release, pursuant to
the provisions of the Federal Rules of Criminal Procedure relating to the
modification of probation, if it is satisfied that such action is warranted by the
conduct of the defendant released and the interest of justice;
(2) extend a term of supervised release if less than the maximum authorized
term was previously imposed, and may modify, reduce, or enlarge the conditions
of supervised release, at any time prior to the expiration or termination of the
term of supervised release, pursuant to the provisions of the Federal Rules of
Criminal Procedure relating to the modification of probation and the provisions
applicable to the initial setting of the terms and conditions of post-release
supervision;
(3) revoke a term of supervised release, and require the defendant to serve in
prison all or part of the term of supervised release authorized by statute for the
offense that resulted in such term of supervised release without credit for time
previously served on postrelease supervision, if the court, pursuant to the
Federal Rules of Criminal Procedure applicable to revocation of probation or
supervised release, finds by a preponderance of the evidence that the defendant
violated a condition of supervised release, except that a defendant whose term
is revoked under this paragraph may not be required to serve on any such
revocation more than 5 years in prison if the offense that resulted in the term
of supervised release is a class A felony, more than 3 years in prison if such
offense is a class B felony, more than 2 years in prison if such offense is a class
C or D felony, or more than one year in any other case; or
(4) order the defendant to remain at his place of residence during nonworking
hours and, if the court so directs, to have compliance monitored by telephone or
electronic signaling devices, except that an order under this paragraph may be
imposed only as an alternative to incarceration.
(f) Written Statement of Conditions.—The court shall direct that the probation officer
provide the defendant with a written statement that sets forth all the conditions to
which the term of supervised release is subject, and that is sufficiently clear and
specific to serve as a guide for the defendant's conduct and for such supervision as is
required.
(g) Mandatory Revocation for Possession of Controlled Substance or Firearm or for
Refusal To Comply With Drug Testing.—If the defendant—
(1) possesses a controlled substance in violation of the condition set forth in
subsection (d);
App. 16a

(2) possesses a firearm, as such term is defined in section 921 of this title, in
violation of Federal law, or otherwise violates a condition of supervised release
prohibiting the defendant from possessing a firearm;
(3) refuses to comply with drug testing imposed as a condition of supervised
release; or
(4) as a part of drug testing, tests positive for illegal controlled substances more
than 3 times over the course of 1 year;
the court shall revoke the term of supervised release and require the defendant to
serve a term of imprisonment not to exceed the maximum term of imprisonment
authorized under subsection (e)(3).
(h) Supervised Release Following Revocation.—When a term of supervised release is
revoked and the defendant is required to serve a term of imprisonment, the court may
include a requirement that the defendant be placed on a term of supervised release
after imprisonment. The length of such a term of supervised release shall not exceed
the term of supervised release authorized by statute for the offense that resulted in the
original term of supervised release, less any term of imprisonment that was imposed
upon revocation of supervised release.
(i) Delayed Revocation.—The power of the court to revoke a term of supervised release
for violation of a condition of supervised release, and to order the defendant to serve
a term of imprisonment and, subject to the limitations in subsection (h), a further term
of supervised release, extends beyond the expiration of the term of supervised release
for any period reasonably necessary for the adjudication of matters arising before its
expiration if, before its expiration, a warrant or summons has been issued on the basis
of an allegation of such a violation.
(j) Supervised Release Terms for Terrorism Predicates.—Notwithstanding subsection
(b), the authorized term of supervised release for any offense listed in section
2332b(g)(5)(B) is any term of years or life.
(k) Notwithstanding subsection (b), the authorized term of supervised release for any
offense under section 1201 involving a minor victim, and for any offense under section
1591, 1594(c), 2241, 2242, 2243, 2244, 2245, 2250, 2251, 2251A, 2252, 2252A, 2260,
2421, 2422, 2423, or 2425, is any term of years not less than 5, or life. If a defendant
required to register under the Sex Offender Registration and Notification Act commits
any criminal offense under chapter 109A, 110, or 117, or section 1201 or 1591, for
which imprisonment for a term longer than 1 year can be imposed, the court shall
revoke the term of supervised release and require the defendant to serve a term of
imprisonment under subsection (e)(3) without regard to the exception contained
therein. Such term shall be not less than 5 years.

App. 17a

18 U.S.C. § 3624. Release of a prisoner
*

*

*

(e) Supervision After Release.—A prisoner whose sentence includes a term of
supervised release after imprisonment shall be released by the Bureau of Prisons to
the supervision of a probation officer who shall, during the term imposed, supervise the
person released to the degree warranted by the conditions specified by the sentencing
court. The term of supervised release commences on the day the person is released
from imprisonment and runs concurrently with any Federal, State, or local term of
probation or supervised release or parole for another offense to which the person is
subject or becomes subject during the term of supervised release. A term of supervised
release does not run during any period in which the person is imprisoned in connection
with a conviction for a Federal, State, or local crime unless the imprisonment is for a
period of less than 30 consecutive days. Upon the release of a prisoner by the Bureau
of Prisons to supervised release, the Bureau of Prisons shall notify such prisoner,
verbally and in writing, of the requirement that the prisoner adhere to an installment
schedule, not to exceed 2 years except in special circumstances, to pay for any fine
imposed for the offense committed by such prisoner, and of the consequences of failure
to pay such fines under sections 3611 through 3614 of this title.

App. 18a

